HHS/OIG, Audit -"Review of Maine's Medicaid Retroactive Claims for School-Based Health Services - January 2001
Through June 2003,"(A-01-04-00004)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Maine's Medicaid Retroactive Claims for School-Based Health Services - January 2001 Through June 2003," (A-01-04-00004)
January 18, 2005
Complete
Text of Report is available in PDF format (354 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Maine's State agency's retroactive claims for Medicaid school-based
health services complied with Federal regulations.  The State agency did not follow Federal regulations when it processed
the retroactive claims for Medicaid school-based health services and did not incur any expenditures because it did not
remit the Federal share received for these claims to the provider school districts.  The State agency was overpaid
$3,044,211 (Federal share).  We recommended that the State agency refund the $3,044,211 to the Federal Government
and follow prescribed procedures to ensure that the State properly refunds the Federal share for uncashed or voided checks
in accordance with Federal requirements.  The State agency did not agree to repay the $3,044,211.  However, the
State agency agreed that the payment procedures it used to process claims for retroactive school-based costs were inappropriate
and said that it would work with CMS to develop an acceptable payment process.